No. 19In the

Supreme Court of the United States
JOY SPURR,
Petitioner,
v.
MELISSA L. POPE, CHIEF JUDGE, TRIBAL
COURT OF THE NOTTAWASEPPI HURON BAND
OF POTAWATOMI, THE SUPREME COURT FOR
THE NOTTAWASEPPI HURON BAND OF
POTAWATOMI, THE NOTTAWASEPPI HURON
BAND OF POTAWATOMI,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

Stephen J. Spurr
Counsel of Record
1114 Beaconsfield Avenue
Grosse Pointe Park, MI 48230
(313) 331-2902
aa9966@wayne.edu
Counsel for Petitioner

291951

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
A member of an Indian tribe filed a petition in tribal
court for an ex parte personal protection order against
“stalking” by a nontribal member. The petition was
granted by the tribal court. The nontribal member later
sued in federal court claiming that her conduct was not
“stalking” and that the tribal court lacked jurisdiction.
The tribe moved to dismiss the federal case on the grounds
that it had sovereign immunity, and the Sixth Circuit ruled
in favor of the tribe.
The questions presented are:
1.

Suppose a nontribal member is sued in a court of an
Indian Tribe, and later sues in federal court claiming
that the tribal court lacked jurisdiction. Can the Tribe
end the federal case by invoking sovereign immunity?
and

2.

Does an Indian Tribe have jurisdiction to issue and
enforce a personal protection order against a nonTribal member who has none of the ties to the Tribe
required by Section 1304 of the Violence Against
Women Reauthorization Act?

ii
List of Parties and Related Cases
The caption of the case in this Court contains the
names of all parties to the proceedings in the United
States Court of Appeals for the Sixth Circuit. The directly
related proceedings are:
Joy Spurr v. Melissa Pope, et al., No. 1:17-cv-1083,
U.S. District Court for the Western District of Michigan.
Judgment entered September 27, 2018.
Joy Spurr v. Melissa Pope, et al., No. 18-2174, U.S.
Court of Appeals for the Sixth Circuit. Judgment entered
August 26, 2019.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
List of Parties and Related Cases  . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 5
1.

The Sixth Circuit erred when it dismissed
the federal case, holding that the tribe had
sovereign immunity. This Decision would
Subject Nontribal Defendants to TribalCourt Jurisdiction in vastly expanded
circumstances. Such defendants would not
be protected by guarantees of due process,
and would be unable to obtain outside
review of the tribal court decision . . . . . . . . . . . . 5

iv
Table of Contents
Page
A. The fact that federal courts have often
issued injunctions or declaratory
judg ment s aga i nst proceed i ng s
in tribal courts shows that tribal
sovereign immunity is not applicable . . . . . . 7
B. The Cases Cited by the Ci rcuit
Court Do Not Support The Claim of
Tribal Sovereign Immunity  . . . . . . . . . . . . . 9
2.

The holdings of the Sixth and Tenth
Circuits that tribal sovereign immunity
applies unless Congress has clearly said
otherwise are in Conflict with Decisions
of this Court and the Other Circuits . . . . . . . . . 10
A. The Scope of Tribal Sovereign Immunity
Under Federal Common Law . . . . . . . . . . . 12
B. Consequences of the Circuit Court’s
Decision  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

3.

The Sixth Circuit erred when it held that
the Tribal Court had jurisdiction to issue
and enforce a personal protection order
against a non-Tribal member who has
none of the ties to the Tribe specified in
Section 1304 of the Violence Against Women
Reauthorization Act (residence with the
Tribe, employment by the Tribe, or a romantic
relationship with a Tribal member) . . . . . . . . . . 15

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

v
TABLE OF APPENDICES
Page
Appendix A — opinion of the united
states court of appeals for the
sixth circuit, filed august 26, 2019 . . . . 1a
A ppendix B — opinion AND ORDER
of the UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT
OF MICHIGAN, SOUTHERN DIVISION . . . . . . 21a
Appendix C — RELEVANT STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38a
Appendix D — Senate Report 112-153
on the Violence against Women
R eauthori z ation Act of 2 011,
March 12, 2012, p. 11 . . . . . . . . . . . . . . . . . . . . . . . 41a

vi
TABLE OF CITED AUTHORITIES
Page
CASES
Aluminum Co. of America v.
Department of Treasury,
522 F.2d 1120 (6th Cir. 1975) . . . . . . . . . . . . . . . . . . . 19
Blatchford v. Native Village of Noatak,
501 U.S. 775 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Brendale v. Confederated Tribes and Bands of
the Yakima Indian nation et al.,
492 U.S. 408 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7
C & L Enterprises, Inc. v. Citizen Band
Potawatomi Indian Tribe of Oklahoma,
532 U.S. 411 (2001)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 12
Crowe & Dunlevy v. Gregory R. Stidham,
640 F.3d 1140 (10th Cir. 2011)  . . . . . . . . . . . . . . . . 8, 13
Dellmuth v. Muth,
491 U.S. 223 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
Duro v. Reina,
495 U.S. 676 (1990)  . . . . . . . . . . . . . . . . . . . . . . . 6, 8, 15
Kerr-McGee Corporation et al., v.
Kee Tom Farley et al.,
88 F. Supp. 2d 1219 (D. New Mexico 2000)  . . . . . 8, 13
Kiowa Tribe of Okla. v. Mfg. Techs., Inc.,
523 U.S. 751 (1998) . . . . . . . . . . . . . . . . . . . . . . . 9, 10, 12

vii
Cited Authorities
Page
McKesson Corporation et al. v.
Todd Hembree et al.,
2018 U.S. Dist. LEXIS 3700 (N.D. Okla. 2018) . . 8, 13
Memphis Biofuels, LLC v.
Chickasaw Nation Indus., Inc.,
585 F.3d 917 (6th Cir. 2009) . . . . . . . . . . . . . . . . . . 9, 12
Michigan v. Bay Mills Indian Cmty,
572 U.S. 782 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 12
Miner Electric, Inc. v. Muscogee (Creek) Nation,
505 F.3d 1007 (10th Cir. 2007) . . . . . . . . . . . .  10, 11, 13
Montana v. United States,
450 U.S. 544 (1981)  . . . . . . . . . . . . . . . . . . . . . . . passim
Nat’l Farmers Union Ins. Co. v. Crow Tribe,
471 U.S. 845 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Nevada v. Hicks,
533 U.S. 353 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Oliphant v. Suquamish Indian Tribe,
435 U.S. 191 (1978) . . . . . . . . . . . . . . . . . . . .  6, 13, 14, 15
Plains Commerce Bank v.
Long Family Land & Cattle Co.,
554 U.S. 316 (2008) . . . . . . . . . . . . . . . . . . . . . 6, 8, 9, 13
Reed v. Reno,
146 F.3d 392 (6th Cir. 1998) . . . . . . . . . . . . . . . . . . 9, 10

viii
Cited Authorities
Page
South Dakota v. Bourland,
508 U.S. 679 (1993)  . . . . . . . . . . . . . . . . . . . . . . . 6, 7, 11
Stifel, Nicholaus & Company, Inc. v.
Lac Du Flambeau Band of Lake Superior
Chippewa Indians,
807 F.3d 184 (7th Cir. 2015) . . . . . . . . . . . . . . . . . . 8, 13
Strate v. A-1 Contractors,
520 U.S. 438 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . 8, 13
UNC Resources, Inc., et al. v.
Kee Joe Benally et al.,
518 F. Supp. 1046 (D. Arizona 1981) . . . . . . . . . . . 8, 13
United States v Wheeler,
435 U.S. 313 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Whittle v. United States,
7 F.3d 1259 (6th Cir. 1993) . . . . . . . . . . . . . . . . . . . 9, 10
CONSTITUTIONAL PROVISIONS
Fifth Amendment to the U.S. Constitution  . . . . . . . . . 14
Fourteenth Amendment to the U.S. Constitution . . . . 14
STATUTES
18 U.S.C. Sec. 2265, Full Faith and Credit
	Given to Protection Orders . . . . . . . . . . . . . . . . passim
18 U.S.C. Sec. 2265(b)(1) . . . . . . . . . . . . . . . . . . . . . .  17, 19

ix
Cited Authorities
Page
18 U.S.C. Sec. 2265(b)(2) . . . . . . . . . . . . . . . . . . . . . .  17, 19
18 U.S.C. Sec. 2265(e) . . . . . . . . . . . . . . . . . . .  16, 17, 18, 19
25 U.S.C. Sec. 1302, The Indian Civil Rights Act  . . . . 14
25 U.S.C. Sec. 1304, Tribal Jurisdiction over
Crimes of Domestic Violence . . . . . . . . . . . . . . . passim
25 U.S.C. Sec. 1304(a)(4)  . . . . . . . . . . . . . . . . . . . . . . . . . 16
25 U.S.C. Sec. 1304(a)(5) . . . . . . . . . . . . . . . . . . . . . . . . . 16
25 U.S.C. Sec. 1304(a)(6)  . . . . . . . . . . . . . . . . . . . . . . . . . 16
25 U.S.C. Sec. 1304(b)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
25 U.S.C. Sec. 1304(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 16
25 U.S.C. Sec. 1304(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . 16
25 U.S.C. Sec. 1304(b)(4)(A)(ii) . . . . . . . . . . . . . . . . . . . . 16
25 U.S.C. Sec. 1304(b)(4)(B)  . . . . . . . . . . . . . . . . . . passim
25 U.S.C. Sec. 1304(c) . . . . . . . . . . . . . . . . . . . . . . . . .  16, 19
25 U.S.C. Sec. 1304(d)  . . . . . . . . . . . . . . . . . . . . . . . . . 2, 16
25 U.S.C. Sec. 1304(d)(4)  . . . . . . . . . . . . . . . . . . . . . . . . . 16
25 U.S.C. Sec. 1304(f)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . 16
25 U.S.C. Sec. 1304(f)(3)  . . . . . . . . . . . . . . . . . . . . . . . . . 16

x
Cited Authorities
Page
28 U.S.C. Sec. 1254(1) Writ of Certiorari  . . . . . . . . . . . . 2
28 U.S.C. Sec. 1331, Jurisdiction  . . . . . . . . . . . . . . . . . 2, 6
ARTICLES
Newton, Tribal Court Praxis: One Year in
the Life of Twenty Indian Tribal Courts,
22 Am. Indian L. Rev. 285 (1998) . . . . . . . . . . . . . . . 14

1
PETITION FOR A WRIT OF CERTIORARI
Joy Spurr respectfully petitions this Court for a writ
of certiorari to review the August 26, 2019 Opinion and
Judgment of the United States Court of Appeals for the
Sixth Circuit. The Circuit Court affirmed the District
Court’s order of September 27, 2018 granting a motion
to dismiss for failure to state a claim on which relief can
be granted. The Circuit Court held with respect to two of
the appellees, the Tribe and the Tribal Supreme Court,
that the claims against them were barred by Tribal
sovereign immunity. The Circuit Court also held that a
Tribal Court has jurisdiction to issue a personal protection
order against a non-Tribal member even if she has none
of the ties to the Tribe required by Section 1304 of the
Violence Against Women Reauthorization Act (residence
with the Tribe, employment by the Tribe, or a romantic
relationship with a Tribal member).
OPINIONS BELOW
The Petitioner seeks review of the Opinion and
Judgment of the United States Court of Appeals for the
Sixth Circuit in Case No. 18-2174, Joy Spurr v. Melissa
Lopez Pope, Chief Judge, Tribal Court of the Nottawaseppi
Huron Band of Potawatomi; the Supreme Court for
the Nottawaseppi Huron Band of Potawatomi; and the
Nottawaseppi Huron Band of Potawatomi, of August 26,
2019. The opinion of the Court of Appeals is reported at
Spurr v. Pope, 936 F. 3d 478 (6th Cir. 2019) and is reprinted
in Appendix A to this Petition, pp. 1a – 20a. The prior
opinion of the United States District Court for the Western
District of Michigan in Case No. 1:17-cv-01083, entered on
September 27, 2018, is reported at Spurr v. Pope, 2018 U.S.
Dist. LEXIS 225934 (W.D. Mich. 2018), and is reprinted in
Appendix B to this Petition, pp. 21a – 37a.

2
JURISDICTION
The judgment of the Court of Appeals was entered on
August 26, 2019. The jurisdiction of this Court is invoked
pursuant to 28 U.S.C. § 1254(1).
Federal courts have jurisdiction to review tribal court
jurisdiction pursuant to 28 U.S.C. § 1331, which provides:
The district courts shall have original jurisdiction of
all civil actions arising under the Constitution, laws, or
treaties of the United States. See Nat’l Farmers Union
Ins. Co. v. Crow Tribe, 471 U.S. 845, 852-53 (1985).
STATUTORY PROVISIONS INVOLVED
18 U.S.C. Sec. 2265, Full Faith and Credit Given to
Protection Orders, Appendix C, pp. 38a- 40a, and
Appendix D, p. 41a
25 U.S.C. Sec. 1304, Tribal Jurisdiction over Crimes of
Domestic Violence, Appendix C, pp. 38a-39a
25 U.S.C. Sec. 1304(d), Rights of Defendants Appendix
C, p. 40a
STATEMENT OF THE CASE
This case basically involves two issues:
(1) If a nontribal member is sued in a Tribal Court, and
later sues in federal court claiming that the tribal court
lacked jurisdiction, can the case proceed, or is it barred
if the tribe claims sovereign immunity?; and
(2) whether a Tribal Court has personal and subject
matter jurisdiction under federal law to issue a personal
protection order against a non-Tribal member who has

3
none of the ties to the Tribe required by 25 U.S.C. 1304
of the Violence Against Women Reauthorization Act.
The petition for the protection order against Mrs.
Spurr was filed in NHBP Trial Court by Nathaniel
W. Spurr (hereinafter Nathaniel), who is a member of
NHBP, a federally recognized American Indian Tribe.
It is important to know whether Mrs. Spurr fits into any
of certain categories specified in 25 U.S.C. 1304(b)(4)(B)
that could provide support for a claim of subject matter
jurisdiction. The categories in question apply to a person
who:
(i) resides in the Indian Country of the
participating tribe;
(ii) is employed in the Indian Country of the
participating tribe; or
(iii) is a spouse, intimate partner, or dating
partner of
(I) a member of the participating
tribe; or
(II) an Indian who resides in the
Indian country of the participating
tribe.
It is undisputed by the parties that none of these categories
applies to Mrs. Spurr.
Litigation in NHBP Tribal Courts
On February 2, 2017, Nathaniel filed a petition for
a personal protection order against Mrs. Spurr in the

4
NHBP Trial Court. On February 3, 2017 the NHBP Trial
Court issued an ex parte temporary Personal Protection
Stalking Order against Mrs. Spurr, prohibiting her from
“stalking” Nathaniel. The Order stated, in paragraph 9,
that it was effective immediately, and would remain in
effect until February 17, 2017.
The NHBP Trial Court stated that it issued the ex
parte order of February 3 without hearing any testimony.
The February 3 Order was issued by the Court without
prior notice of any kind to Mrs. Spurr, who did not learn
of the order until February 8, 2017. On February 17, 2017,
the NHBP Trial Court issued a permanent Personal
Protection Order against Mrs. Spurr, identical in its terms
to the temporary protection order. The Order of February
17 stated that
Violation of this order subjects the respondent
to immediate arrest and to the civil and
criminal contempt powers of the court. If found
guilty, the respondent shall be imprisoned for
not more than 90 days and/or may be fined not
more than $1000. [emphasis supplied].
On March 5, 2017, Mrs. Spurr filed a motion contending
she did not stalk and that the NHBP Trial Court lacked
civil or criminal jurisdiction to issue a personal protection
order against her as a nonmember of the Tribe without
any of the ties specified above under 25 U.S.C. 1304(b)(4)
(B). On July 21, 2017 the Trial Court denied the motion.
On July 22, 2017 Mrs. Spurr filed with the NHBP
Supreme Court a notice of appeal. On January 25, 2018
the NHBP Supreme Court filed its opinion, denying Mrs.
Spurr’s appeal in every respect.

5
The NHBP Trial Court issued continuous Personal
Protection Orders dated February 3, 2017, February 17,
2017, and February 13, 2018.
Litigation in Federal Courts
On December 11, 2017 Mrs. Spurr filed a Complaint
for Declaratory Judgment and Injunctive Relief in U.S.
District Court in the Western District of Michigan. On
April 9, 2018 the Tribe filed a joint motion to dismiss the
Complaint for lack of subject matter jurisdiction and
failure to state a claim on which relief can be granted.
On September 27, 2018, the District Court found that
oral argument was unnecessary to resolve the issues, and
entered a final order and judgment granting the Tribe’s
motion and dismissing Mrs. Spurr’s Complaint, reported
at 2018 U.S. Dist. LEXIS 225934 (W.D. Mich. 2018). Mrs.
Spurr appealed to the Sixth Circuit Court of Appeals.
After a hearing, the Circuit Court issued an opinion and
judgment affirming the decision of the District Court on
August 26, 2019, now reported at 936 F. 3d 478 (6th Cir.
2019).
REASONS FOR GRANTING THE PETITION
1. The Sixth Circuit erred when it dismissed the
federal case, holding that the tribe had sovereign
immunity. This Decision would Subject Nontribal
Defendants to Tribal-Court Jurisdiction in vastly
expanded circumstances. Such defendants would
not be protected by guarantees of due process, and
would be unable to obtain outside review of the
tribal court decision.
The Circuit Court erred when it held with respect to
two of the appellees, the Tribe and the Tribal Supreme

6
court, that the claims against them were barred by Tribal
sovereign immunity.1 The Circuit Court mistakenly
adopted the theory that a tribe has sovereign immunity
unless Congress has specifically and “unequivocally”
abrogated it (Appendix A, pp. 13a-16a); according to
this view Section 1331 allows people to sue on a federal
question in district court, but does not abrogate tribal
sovereign immunity. That is, Section 1331 allows a tribal
court defendant to sue, but not to have his or her case
continue once the Tribe invokes immunity.
The Circuit Court’s theory ignores a crucial,
dispositive fact: the person challenging the jurisdiction of
the tribal court over her was a nontribal member. Federal
common law imposes severe limits on both the criminal
and civil jurisdiction of a tribal court over non-Tribal
members. See, e.g., United States v. Wheeler, 435 U.S.
313 (1978); Oliphant v. Suquamish Indian Tribe, 435 U.S.
191 (1978); Montana v. United States, 450 U.S. 544 (1981);
Brendale v. Confederated Tribes and Bands of the Yakima
Indian nation et al., 492 U.S. 408 (1989); Duro v. Reina,
495 U.S. 676 (1990); South Dakota v. Bourland, 508 U.S.
679 (1993); and Plains Commerce Bank v. Long Family
Land & Cattle Co., 554 U.S. 316 (2008). In Oliphant, this
Court held that “Indians do not have criminal jurisdiction
over non-Indians absent affirmative delegation of such
power by Congress.” 435 US 191, 208. In Montana, which
involved the civil jurisdiction of a tribe over non-tribal
members, this Court noted that
“Though Oliphant only determined inherent
tribal authority in criminal matters, the
1. The claim against the third appellee, Judge Pope, was not
barred, but only because the Tribe had explicitly waived Tribal
sovereign immunity with respect to her.

7
principles on which it relied support the general
proposition that the inherent sovereign powers
of an Indian tribe do not extend to the activities
of nonmembers of the tribe.” 450 U.S. 544, 565.
The lack of inherent sovereign immunity in the context
of our case was confirmed in two more recent cases of
this Court, Brendale v. Confederated Tribes and Bands
of the Yakima Indian nation et al., 492 U.S. 408 (1989)
and South Dakota v. Bourland, 508 U.S. 679 (1993). In
Brendale this Court stated that:
A tribe’s inherent sovereignty, however, is
divested to the extent it is inconsistent with the
tribe’s dependent status, that is, to the extent it
involves a tribe’s “external relations.” Wheeler,
435 U.S. at 326. Those cases in which the
Court has found a tribe’s sovereignty divested
generally are those involving the relations
between an Indian tribe and nonmembers of
the Tribe.” Ibid. 492 U.S. at 425-426.
Finally, in South Dakota v. Bourland (1993), the
Court noted that “after Montana, tribal sovereignty
over nonmembers ‘cannot survive without express
congressional delegation’ 450 U.S. at 564 and is therefore
not inherent.” 508 U.S.at 695 n. 15 (1993).
A.

The fact that federal courts have often issued
injunctions or declaratory judgments against
proceedings in tribal courts shows that tribal
sovereign immunity is not applicable

If there were any remaining notion that sovereign
immunity could bar Mrs. Spurr from bringing this action

8
in federal court, it is dispelled by a simple fact: there are
many cases in which a challenge to the jurisdiction of a
tribal court has led a federal court to issue an injunction
or declaratory judgment against the tribal court. None
of these courts thought that tribal sovereign immunity
would bar the plaintiff from obtaining an injunction or
declaratory judgment. See, e.g., Montana v. United
States, 450 U.S. 544 (1981); Plains Commerce Bank
(2008); Strate v. A-1 Contractors, 520 U.S. 438 (1997);
McKesson Corporation et al. v. Todd Hembree et al., 2018
U.S. Dist. Lexis 3700 (N.D. Okla. 2018); Stifel, Nicholaus
& Company, Inc. v. Lac Du Flambeau Band of Lake
Superior Chippewa Indians, 807 F. 3d 184 (7th Cir. 2015);
Kerr-McGee Corporation et al., v. Kee Tom Farley et
al., 88 F. Supp. 2nd 1219 (D. New Mexico 2000); Crowe &
Dunlevy v. Gregory R. Stidham, 640 F.3d 1140 (2011) at
1157; and UNC Resources, Inc., et al. v. Kee Joe Benally
et al., 518 F. Supp. 1046 (D. Arizona 1981).
The cases cited above show that with respect to the
relation between a tribe and nonmembers, the doctrine
of tribal sovereignty, including sovereign immunity, is
not applicable unless either (1) Congress has extended
it to cover such a case, or (2) the case falls within one of
two narrowly defined “Montana exceptions.” In other
words, contrary to the Circuit Court’s holding that tribal
sovereign immunity applies unless Congress has clearly
said otherwise, there is no sovereign immunity unless
Congress has clearly said so. The reason given by the
Supreme Court for these limitations is that non-tribal
members should not be subject to trial by “political bodies
that do not include them.” Duro v. Reina, 495 U.S. at 693.
As noted above, there are two exceptions to this rule:
the tribe retains sovereign immunity with regard to
(1) the activities of nonmembers who enter into commercial

9
relationships with the tribe or its members, and (2) the
conduct of non-members on lands within its reservation
if it “imperils the subsistence” or would be “catastrophic”
to tribal self-government. Montana, 450 U.S. at 566, and
Plains Commerce Bank, 554 U.S. at 341. Neither of these
conditions applies to the instant case.
B. The Cases Cited by the Circuit Court Do
Not Support The Claim of Tribal Sovereign
Immunity
The cases cited by the Circuit Court do not support
its broad view of tribal sovereign immunity. The Court
cited Kiowa Tribe of Okla. v. Mfg. Techs., Inc., 523 U.S.
751 (1998), C & L Enterprises, Inc. v. Citizen Band
Potawatomi, 532 U.S. 411 (2001), Memphis Biofuels,
LLC v. Chickasaw Nation Indus., Inc. 585 F.3d 917 (6th
Cir. 2009), Michigan v. Bay Mills Indian Cmty. 572
U.S. 782 (2014); Dellmuth v. Muth, 491 U.S. 223 (1989);
Whittle v. United States, 7 F.3d 1259 (6th Cir. 1993);
Reed v. Reno, 146 F.3d 392 (6th Cir. 1998); Blatchford
v. Native Village of Noatak, 501 U.S. 775 (1991); and
Miner Electric, Inc. v. Muscogee (Creek) Nation, 505
F.3d 1007 (10th Cir. 2007) (Appendix A, pp. 5a-10a). The
first four of these cases, Kiowa,C & L Enterprises, Inc.,
Memphis Biofuels, and Michigan v. Bay Mills, all involved
lawsuits initially brought against Indian tribes based on
commercial relationships and activities. 2 Thus these cases
2. Kiowa involved a purchase of an aviation business by a
tribal entity, Memphis Biofuels a tribal corporation contracting
to deliver diesel fuel and soybean oil to another business, and Bay
Mills the operation of a tribal casino, in which the State of Michigan
sought jurisdiction under the Indian Gaming Regulatory Act. In C
& L Enterprises a tribe was sued by a contractor with whom it had
entered into a construction contract. The statement in Kiowa that
“As a matter of federal law, an Indian tribe is subject to suit only

10
fall within the first Montana exception. Four of the other
five cases relied on by the Circuit Court did not involve
tribal sovereign immunity: Dellmuth v. Muth, Blatchford,
Whittle v. United States, and Reed v. Reno involved the
sovereign immunity of either a state, the U.S. Army. or
the United States. The Circuit Court’s holding was based
on two incorrect assumptions about the rules on sovereign
immunity: (1) that the rules that apply to the two Montana
exceptions apply to all cases involving nontribal members,
and (2) that the rules that apply to a state or the United
States also apply to an Indian Tribe.
2. The holdings of the Sixth and Tenth Circuits that
tribal sovereign immunity applies unless Congress
has clearly said otherwise are in Conflict with
Decisions of this Court and the Other Circuits.
The last case cited by the Circuit Court, Miner
Electric. takes a position well outside the mainstream
of federal common law. There a tribal court ordered the
forfeiture to the tribe of a vehicle owned by a customer of
the tribe’s casino, and the customer sought relief from the
forfeiture in District Court on the basis that the Tribal
Court lacked jurisdiction. The 10th Circuit held that even
if there were federal question jurisdiction, it would not
override the tribe’s sovereign immunity unless “some
other statute” provided a waiver of immunity. 505 F.3d at
1011. In effect, then, the 10th Circuit accepted the theory
that a tribe has sovereign immunity regardless of the facts
unless Congress has specifically abrogated it. The 10th
Circuit cited two of its own decisions for this proposition,
but no other authority. One of those cases involved the
where Congress has authorized the suit or the tribe has waived its
immunity” (523 U.S. 754) applies when there is a lawsuit against
a tribe based on tribal activities of a commercial nature.

11
immunity of a federal agency, and the other case cannot
be found anywhere on Lexis-Nexis. We have found no
decisions prior to Miner Electric holding that an Indian
tribe could use sovereign immunity against a claim by a
nontribal member in federal court challenging the civil
jurisdiction of its Tribal Court, in a case where neither
of the two “Montana exceptions” was applicable. With the
instant decision the 6th Circuit has joined the 10 th Circuit
in support of this proposition, which is squarely in conflict
with the decisions of this Court and the other circuits. This
is an issue that must be resolved by this Court.
The table set forth below summarizes the applicability
of sovereign immunity under federal common law, when
the case involves nontribal members and Congress has
not taken a position on tribal immunity one way or the
other. Note from the third row of the table (on p. 13) that
Miner Electric and the instant case are very much in the
minority. Federal common law, established by decisions
of the Supreme Court, the Circuit Courts of Appeal, and
the federal District Courts, overwhelmingly confirms
the principle that “after Montana, tribal sovereignty
over nonmembers ‘cannot survive without express
congressional delegation’ 450 U.S. at 564, and is therefore
not inherent.” South Dakota v. Bourland, 508 U.S. 679,
695 n. 15 (1993).

12
A.

The Scope of Tribal Sovereign Immunity Under
Federal Common Law

Subject at
Issue:
Commercial Dealings, in
Which a Plaintiff Files a
Lawsuit Against the Tribe
(the first Montana exception)

The Lawsuit Imperils the
Subsistence of the Tribe,
or Threatens the Political
Integrity of Tribal Government
(the 2nd Montana exception)

The Tribe’s Relations
with Non-Tribal Members
Tribal Immunity Unless It
is Waived
Kiowa Tribe of Okla. v.
Mfg. Techs., Inc. (1998),
C & L Enterprises, Inc. v.
Citizen Band Potawatomi
(2001), Memphis Biofuels,
LLC v. Chickasaw Nation
(2009), Michigan v. Bay
Mills Indian Cmty. (2014)
Tribal Immunity Unless It
is Waived

13
Subject at
Issue:

The Tribe’s Relations
with Non-Tribal Members

All Other Legal Disputes,
Including Lawsuits Alleging Lack of Tribal Court
Jurisdiction

Tribal Immunity Unless It
is Waived
Miner Elec., Inc. v. Muscogee (Creek) Nation,
(10th Cir. 2007); Joy Spurr
v. Melissa Pope et al.
(6th Cir. 2019)
Tribe is Not Immune
Oliphant v. Suquamish
Indian Tribe (1978);
Montana v. United States
(1981); Plains Commerce
Bank v. Long Family Co.
(2008); Strate v. A-1 Contractors (1997);
McKesson Corporation et
al. v. Todd Hembree et al.
(2018); Stifel, Nicholaus &
Co, Inc. v. Lac Du Flambeau Band (2015); KerrMcGee Corporation et
al., v. Farley et al. (2000);
Crowe & Dunlevy v. Gregory R. Stidham (2011);
UNC Resources, Inc., et
al. v. Benally et al. (1981).

14
B. Consequences of the Circuit Court’s Decision
The Circuit Court’s decision is a radical and dangerous
departure from federal common law and the decisions of
this Court. If the Circuit Court’s decision were allowed to
stand, and it became widely accepted, the consequences
would be drastic in all areas of the law where Congress
had not “unequivocally” abrogated sovereign immunity.
Nontribal defendants with no contact with a tribe would be
subjected to Tribal-Court Jurisdiction in vastly expanded
circumstances without the protection of criminal and
civil due process guarantees or the possibility of outside
judicial review.
Tribal courts are quite different from state and federal
courts in the United States. For example, as former
Justice Souter pointed out in Nevada v. Hicks, the Bill of
Rights and the Fourteenth Amendment “do not of their
own force apply to Indian tribes.” Hicks, 533 U.S. 353,
at 383 (Souter, J., concurring). Although the Indian Civil
Rights Act of 1968 (ICRA) provides for some safeguards
in tribal courts, 25 U.S.C. § 1302, “the guarantees are
not identical,” Oliphant, 435 U.S. at 194-195, and there is
a “definite trend by tribal courts” toward the view that
they “have leeway in interpreting” the ICRA’s due process
and equal protection clauses and “need not follow the U.S.
Supreme Court precedents ‘jot-for-jot,’” Newton (1988) at
344, n. 238, cited in Hicks by Souter, J. at 384. If a Tribal
Court violated federal law by acting outside its jurisdiction
when imposing liability, or a fine or imprisonment on a
nontribal member, there would be no remedy available to
the nontribal member if she could not bring an action in
federal court. This would give every tribal court system
unlimited jurisdiction, unlike every municipal, state, and
federal court in the country.

15
Contrary to the decision of the Circuit Court, the
District and Circuit Court did have jurisdiction to
determine whether the Tribal Court had jurisdiction to
issue and enforce a personal protection order against Mrs.
Spurr, a non-tribal member.
3. The Sixth Circuit erred when it held that the
Tribal Court had jurisdiction to issue and enforce
a personal protection order against a non-Tribal
member who has none of the ties to the Tribe
specified in Section 1304 of the Violence Against
Women Reauthorization Act (residence with the
Tribe, employment by the Tribe, or a romantic
relationship with a Tribal member).
The other issue in this case is whether the NHBP
Tribal Courts had subject matter jurisdiction to issue and
enforce a personal protection order against Mrs. Spurr.
As previously noted, federal common law imposes severe
limits on both the criminal and civil jurisdiction of a tribal
court over non-Tribal members. See, e.g., Oliphant v.
Suquamish Indian Tribe, Duro v. Reina, and Montana.
Congress granted additional jurisdiction to Tribal
Courts in 2013, under 25 U.S.C. 1304, the title of which is
“Tribal Jurisdiction over Crimes of Domestic Violence.”
This statute provides a grant of jurisdiction to tribal
courts, but the scope of the new jurisdiction over personal
protection orders, whether civil or criminal, was severely
limited with respect to non-tribal members, applicable only
if they had the ties to the Tribe specified in Section1304(b)
(4)(B), viz. they either reside in the tribal reservation, are
employed by the Tribe, or have an intimate relationship
with a tribal member. This is clear from the statute’s
legislative history (see Appendix C, pp. 38a-40a) and the

16
statute itself. It is undisputed that Mrs. Spurr had no such
ties to the Tribe.
The point that Section 1304(a)(5) applies to both
civil and criminal protection orders is crucial, because
the decision of the Circuit Court was based entirely on
the assumption that this statute applied only to criminal
orders. (Appendix A, pp. 13a-16a). 25 U.S.C. 1304(5)
defines the term “protection order” broadly to include
“any . . . order issued by a civil or criminal court . . .”
This section of the statute was designed to preclude the
argument accepted by the Circuit Court, namely that
Section 1304 applies only to “criminal protection orders”,
and that the Tribal Trial Court’s order is “only” a civil
protection order. The proposed distinction between “civil”
and “criminal” protection orders that do the same thing is
found nowhere in the federal statutes nor anywhere else.
Both Sections 1304 and 2265 speak only of “protection
orders.” Even Section 2265(e), on which the Circuit
Court relies so heavily, speaks of “protection orders,” not
“civil protection orders.” More fundamentally, however,
in Section 1304 Congress has specifically stated that
jurisdiction of tribal courts to issue personal protection
orders is criminal jurisdiction. This designation is made
in twelve subsections of the statute. 3
The Circuit Court’s argument for tribal court
jurisdiction is based on 18 U.S.C. Section 2265(e)
(Appendix A, p. 20a). Section 2265 was enacted at exactly
the same time as Section 1304, on March 7, 2013. Both
sections, with virtually identical wording (see Appendix C,
3. 25 U.S.C. Sections 1304(a)(4), (a)(6), (b), (b)(1), (b)(2), (b)
(4)(A)(ii), (b)(4)(B), (c), (d), (d)(4), (f)(1) and (f)(3).

17
pp. 38a-40a) appear in H.R. 4154, introduced on March 7,
2012, and H.R. 757, introduced on February 15, 2013, and
both were enacted on March 7, 2013 as part of P.L. 113-4,
Title IX. The title of section 2265 is “full faith and credit
given to protection orders.” Part of this statute, 18 USC
Sections 2265(b)(1) and (2), actually provides additional
requirements for protection orders: the Tribal Court’s
jurisdiction must be based on Tribal law, and must protect
the defendant’s right to due process, specifically the
defendant’s right to “reasonable notice and an opportunity
to be heard.” However, the Circuit Court contends that
2265(e) grants a Tribal Court plenary jurisdiction to issue
and enforce personal protection orders against anyone,
whether or not they have any connection with the Tribe.
This subsection states that:
For purposes of this section, a court of an
Indian tribe shall have full civil jurisdiction to
issue and enforce protection orders involving
any person . . . in matters arising anywhere in
the Indian country of the Indian tribe . . . or
otherwise within the authority of the Indian
tribe.
Section 2265(e) was motivated by a concern that a
valid personal protection order issued by a Tribal Court
under the new statute might not be taken seriously by
other jurisdictions and non-Tribal courts. Congress
wanted to ensure that a valid protection order, i.e. one
that fully complied with Sections 1304, 2265(b)(1) and (2),
would be given full faith and credit by other jurisdictions,
and would have access to means of law enforcement
outside the Tribe, such as city, county, state and federal

18
law enforcement personnel and resources such as the
Law Enforcement Information Network of Michigan.
Accordingly the Senate Report (in Appendix D, p. 41a)
characterized Section 2265(e) as a “narrow technical fix
to clarify Congress’s intent to recognize that tribal courts
have full civil jurisdiction to issue and enforce protection
orders involving any person, Indian or non-Indian.” The
Senate Report also noted that this section “does not in any
way alter, diminish or expand tribal criminal jurisdiction
or existing tribal authority to exclude individuals from
Indian land.”4
To accept the Circuit Court’s argument, this Court
would have to believe that the same committees of
Congress passed two sections of the statute on the same
day, one of which, under the title “Jurisdiction,” explicitly
denied tribal courts jurisdiction to issue personal
protection orders (whether criminal or civil) against
non-tribal members without specified ties to the Tribe,
and the other granting them an unlimited right to do so.
The legislative history (in Appendix C, pp. 38a-40a, and
Appendix D, p. 41a), which was presented to the Circuit
Court but not mentioned in its opinion, strongly conflicts
with the Circuit Court’s construction. Finally, the Tribe’s
argument would render Section 1304 meaningless and
impotent. Section 1304 would become
. . . meaningless surplusage providing a hollow
remedy. It is a cardinal rule of statutory
construction that there is a presumption against
a construction which would render a statute
ineffective or inefficient, or which would cause
4. Senate Report 112-153 (2012), in Appendix D, p. 41a..

19
grave public injury or even inconvenience.
Aluminum Co. of America v. Department of
Treasury, 522 F.2d 1120 (6th Cir. 1975)
A far more logical interpretation is to assume
that Sections 1304 and 2265 are consistent with
each other and complementary. Section 1304
refers to Section 2265 in a way that makes it
clear that there is no conflict between the two
sections, and that indeed they complement each
other. 25 U.S.C. 1304(c) states that
A participating tribe may exercise . . . jurisdiction
over a defendant for criminal conduct that falls
into one or more of the following categories:
...
(2) Violations of protection orders. An Act that
(A) occurs in the Indian Country of the
participating tribe; and
(B) . . .
(iv) is consistent with section 2265(b) of title 18,
United States Code.
Section 2265 simply states that if a protection order meets
all the requirements of Section 1304, 2265(b)(1) and (2), it
should be given full faith and credit by other jurisdictions.
This is indicated by the language “For purposes of this
section” with which 2265(e) begins, and the fact that
1304 and 2265 were drafted simultaneously by the same

20
committees, and enacted into law at the same time.
In Sections 1304 and 2265, Congress offered tribal
courts the option to issue protection orders on nontribal
members against stalking, harassment and other types
of domestic violence, but only if they would provide the
specified protections of criminal due process and limit
jurisdiction to those with specified close ties to the Tribe.
Congress did not offer tribes the option of imposing fines
and imprisonment on nontribal members without ties to
the Tribe and without due process guarantees under the
rubric of civil jurisdiction.
As of June 20, 2018, 573 Native American tribes were
legally recognized by the Bureau of Indian Affairs of the
United States. 5 Since there is no other case law on this
point, and there are many tribes in some states, the Circuit
Court’s opinion would clear the way for multiple sources of
personal protection orders emanating from many different
tribal courts, each with potentially different standards.
This would not happen if a tribe could assert jurisdiction
over a nonmember only if he or she had the close ties to
the tribe required by Section 1304(b)(4)(B).
CONCLUSION
The Circuit Court has held that the decision of
a tribal court cannot be reviewed outside the Tribe
unless Congress has specifically intervened to abrogate
its sovereign immunity. This decision is a radical and
dangerous departure from federal common law and the
decisions of this Court.
5. Federal Register, Vol. 83, No. 141, July 23, 2018.

21
With respect to the construction of 25 U.S.C. 1304 and
18 U.S.C. 2265, Congress offered tribal courts the option
to issue protection orders on nontribal members against
stalking, harassment and other types of domestic violence,
but only if they would provide the specified protections of
criminal due process and limit jurisdiction to those with
the close ties to the Tribe specified in Section 1304(b)(4)
(B). Congress did not offer tribes the option of imposing
criminal sanctions on nontribal members without ties to
the Tribe and without due process guarantees under the
rubric of civil jurisdiction.
Accordingly, Mrs. Spurr respectfully requests that
this Court grant her petition for certiorari.
Respectfully submitted,
Stephen J. Spurr
Counsel of Record
1114 Beaconsfield Avenue
Grosse Pointe Park, MI 48230
(313) 331-2902
aa9966@wayne.edu
Counsel for Petitioner
Dated: November 5, 2019

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE SIXTH
CIRCUIT, FILED AUGUST 26, 2019
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-2174
JOY SPURR,
Plaintiff-Appellant,
v.
MELISSA LOPEZ POPE, CHIEF JUDGE OF
TRIBAL COURT OF NOTTAWASEPPI HURON
BAND OF THE POTAWATOMI; SUPREME COURT
FOR THE NOTTAWASEPPI HURON BAND OF
POTAWATOMI; NOTTAWASEPPI HURON BAND
OF THE POTAWATOMI,
Defendants-Appellees.
May 1, 2019, Argued;
August 26, 2019, Decided and Filed
Appeal from the United States District Court for the
Western District of Michigan at Grand Rapids.
No. 1:17-cv-01083—Janet T. Neff, District Judge.
Before: DAUGHTREY, COOK, and GRIFFIN,
Circuit Judges.

2a
Appendix A
OPINION
COOK, Circuit Judge. Most family spats end long
before a court gets involved. This one did not, however, and
an Indian tribal court eventually issued a protection order
against Joy Spurr, the stepmother of a tribal member.
But our review involves no probing of the facts, just a
pure question of law: Does a tribal court have jurisdiction
under federal law to issue a civil personal protection
order against a non-Indian and non-tribal member in
matters arising in the Indian country of the Indian tribe?
Because 18 U.S.C. § 2265(e) unambiguously grants tribal
courts that power, and because tribal sovereign immunity
requires us to dismiss this suit against two of the named
defendants, we AFFIRM the district court’s dismissal of
Spurr’s complaint.
I.
Joy Spurr is the stepmother of Nathaniel Spurr, a
tribal member of the Nottawaseppi Huron Band of the
Potawatomi (NHBP), a federally recognized, sovereign
Indian tribe located in Fulton, Michigan. Indian Entities
Recognized and Eligible to Receive Services from the
United States Bureau of Indian Affairs, 83 Fed. Reg.
34863 (July 23, 2018). In February 2017, Nathaniel
sought an ex parte personal protection order (PPO) from
the NHBP tribal court, alleging that Spurr engaged in
a campaign of harassment against him that included,
among many other things, unwanted visits to Nathaniel’s
residence on the NHBP reservation and several hundred
letters, emails, and phone calls. R. 22-3, PageID 268-81.
The tribal court issued the ex parte PPO.

3a
Appendix A
That same month, the tribal court held a hearing to
determine whether to make the PPO “permanent”—in
other words, to make it last one year. After considering
witness testimony, other evidence, and the parties’
arguments, the tribal court issued a permanent PPO
against Spurr. This PPO swept broadly, prohibiting Spurr
from contacting Nathaniel or “appearing within [his]
sight.” R. 1-3, PageID 31. The court later denied Spurr’s
motion to reconsider or modify that order in a thorough,
thirty-six-page opinion. On appeal, the NHBP Supreme
Court affirmed, holding that tribal law authorizes the tribal
court to issue civil personal protection orders against “a
non-Indian who resides outside of the boundaries of
Nottawaseppi Huron Band Indian country.”
About six months later, Nathaniel again initiated
proceedings in tribal court, claiming that Spurr violated
the PPO. After holding two hearings (Spurr did not
attend the first) where the parties presented evidence and
testimony, the tribal court found Spurr “in civil contempt
for violating the [PPO], a civil personal protection order.”
R. 22-4, PageID 283-84. The tribal court mandated that
Spurr pay (1) the attorney’s fees incurred by Nathaniel
for the hearing where Spurr failed to appear; and (2)
$250 to NHBP for the “costs . . . associated with holding
the hearing.” R. 22-4, PageID 284. In lieu of the $250
payment, Spurr could choose to perform twenty-five hours
of community service.
After Nathaniel alleged that Spurr violated the PPO—
but before either hearing—Spurr went on the offensive.
In federal district court, she sued (1) Melissa L. Pope,

4a
Appendix A
the Chief Judge of the NHBP Tribal Court (who issued
the PPO), (2) the NHBP Supreme Court (that affirmed),
and (3) the Band (a sovereign Indian tribe), seeking a
declaratory judgment and injunctive relief. In an order
denying Spurr’s request for a preliminary injunction,
the court limited the parties’ motion-to-dismiss briefing
to two issues: sovereign immunity and subject-matter
jurisdiction. In its joint motion to dismiss, the Tribal
defendants argued that Spurr’s claims against the Band
and the NHBP Supreme Court were barred by sovereign
immunity and should be dismissed under Federal Rule of
Civil Procedure 12(b)(1). R. 30, PageID 354.
The district court held that, under 28 U.S.C. § 1331,
it had federal question jurisdiction to review Spurr’s
claim that the tribal court “lacked jurisdiction to issue
the PPO as a matter of federal law.” R. 33, PageID 39698. But the court ultimately found that 18 U.S.C. § 2265
established the tribal court’s jurisdiction and dismissed
under Rule 12(b)(6) Spurr’s jurisdictional challenge
without addressing the sovereign immunity issue. Spurr
appealed.1
II.
We review de novo a motion to dismiss under Rule
12(b)(1) and Rule 12(b)(6). Winget v. JP Morgan Chase
Bank, N.A., 537 F.3d 565, 572 (6th Cir. 2008); Hedgepeth
v. Tennessee, 215 F.3d 608, 611 (6th Cir. 2000). “When [a]
1. On February 14, 2019, after a hearing, the tribal court
reissued its PPO against Spurr. R. 39, Ex. 3.

5a
Appendix A
defendant challenges subject matter jurisdiction through
a motion to dismiss, the plaintiff bears the burden of
establishing jurisdiction.” Angel v. Kentucky, 314 F.3d 262,
264 (6th Cir. 2002) (citation omitted). We must consider
the Rule 12(b)(1) challenge first; if this court lacks subject
matter jurisdiction, the Rule 12(b)(6) motion becomes
moot. See Moir v. Greater Cleveland Reg’l Transit Auth.,
895 F.2d 266, 269 (6th Cir. 1990); Bell v. Hood, 327 U.S.
678, 682, 66 S. Ct. 773, 90 L. Ed. 939 (1946).
III.
Spurr’s briefs present a cornucopia of grievances—
some reference the Constitution, others the emotional
and financial burden of this litigation. But as her opening
brief posits, this case involves “a single issue of law”: Did
the NHBP tribal court have jurisdiction under federal
law to issue this personal protection order against her, a
non-Indian and non-tribal member? After first resolving
the threshold issue of tribal sovereign immunity, we hold
that it did.
A. Tribal Sovereign Immunity
The district court determined that it had federal
question jurisdiction over the claims raised, so it needn’t
address the issue of tribal sovereign immunity. But tribal
sovereign immunity is a jurisdictional doctrine. That
means we must address it—and must do so first. If it
shields the tribe, we have the power to say that (and only
that) and to dismiss the claim for lack of subject-matter
jurisdiction. Memphis Biofuels, LLC v. Chickasaw

6a
Appendix A
Nation Indus., Inc., 585 F.3d 917, 919-20 (6th Cir. 2009)
(“[I]f [the tribe] enjoys tribal-sovereign immunity, we
need not address the issues of diversity jurisdiction
and federal-question jurisdiction.”). The Band explicitly
waived sovereign immunity on appeal as to Chief Judge
Pope, but asserts that sovereign immunity deprives us of
jurisdiction to consider the claims against the other two
tribal defendants. We agree. Tribal sovereign immunity
bars this suit against the Band and the NHBP Supreme
Court. See Michigan v. Bay Mills Indian Cmty., 572 U.S.
782, 790-91, 134 S. Ct. 2024, 188 L. Ed. 2d 1071 (2014).
“Indian tribes are ‘domestic dependent nations’
that exercise ‘inherent sovereign authority.’” Id. at 788
(citations omitted). That sovereignty includes “commonlaw immunity from suit traditionally enjoyed by sovereign
powers.” Id. (quoting Santa Clara Pueblo v. Martinez,
436 U.S. 49, 58, 98 S. Ct. 1670, 56 L. Ed. 2d 106 (1978)).
It shields not only an Indian tribe itself, but also “arms
of the tribe” acting on its behalf. Memphis Biofuels, 585
F.3d at 921; Kiowa Tribe of Okla. v. Mfg. Techs., Inc.,
523 U.S. 751, 754-55, 118 S. Ct. 1700, 140 L. Ed. 2d 981
(1998) (recognizing that the Court has not “yet drawn
a distinction between governmental and commercial
activities of a tribe”). As the Supreme Court recently
reminded us, the baseline rule “is tribal immunity.” Bay
Mills, 572 U.S. at 790.
But the Constitution grants Congress plenary
control over tribes, and thus the power to abrogate tribal
sovereign immunity. Id.; United States v. Lara, 541 U.S.
193, 200, 124 S. Ct. 1628, 158 L. Ed. 2d 420 (2004). To do

7a
Appendix A
so, “Congress must ‘unequivocally’ express that purpose.”
C & L Enters., Inc. v. Citizen Band Potawatomi Tribe of
Okla., 532 U.S. 411, 418, 121 S. Ct. 1589, 149 L. Ed. 2d
623 (2001) (quoting Santa Clara Pueblo, 436 U.S. at 58);
Bay Mills, 572 U.S. at 790. Indeed, Indian tribes remain
separate sovereigns that pre-existed the Constitution,
and “courts will not lightly assume that Congress in fact
intends to undermine Indian self-government.” Bay Mills,
572 U.S. at 790. “Thus, unless and ‘until Congress acts,
the tribes retain’ their historic sovereign authority.” Id.
at 788 (quoting United States v. Wheeler, 435 U.S. 313,
323, 98 S. Ct. 1079, 55 L. Ed. 2d 303 (1978)).
To support her view that Congress unequivocally
expressed the purpose to subject the Band to this suit,
Spurr points to 28 U.S.C. § 1331. That statute reads:
“The district courts shall have original jurisdiction of
all civil actions arising under the Constitution, laws, or
treaties of the United States.” Spurr reasons that by
granting district courts the authority to hear such actions,
Congress authorized suits against an Indian tribal court
exercising federally-derived authority. But § 1331’s text
fails to abrogate tribal sovereign immunity. To upset the
baseline rule of tribal immunity, the statute’s text “must
‘unequivocally’ express that purpose”—shout it, not
whisper it. Bay Mills, 572 U.S. at 790 (citation omitted).
Yet § 1331 never hints at jurisdiction over suits against
separate nations, the status recognized tribes hold. Conn.
Nat’l Bank v. Germain, 503 U.S. 249, 253-54, 112 S. Ct.
1146, 117 L. Ed. 2d 391 (1992) (“We have stated time and
again that courts must presume that a legislature says
in a statute what it means and means in a statute what

8a
Appendix A
it says there.”). Thus, we cannot say that § 1331 reflects
Congress’s unmistakably clear intention to abrogate tribal
sovereign immunity. See Dellmuth v. Muth, 491 U.S. 223,
227-28, 109 S. Ct. 2397, 105 L. Ed. 2d 181 (1989).
Beyond the text of § 1331, our precedent interpreting
it also leans this direction. In the context of the United
States’ sovereign immunity, we have held that § 1331 “is
not a general waiver of sovereign immunity; it merely
establishes a subject matter that is within the competence
of federal courts to entertain.” Whittle v. United States,
7 F.3d 1259, 1262 (6th Cir. 1993); see Reed v. Reno, 146
F.3d 392, 397-98 (6th Cir. 1998) (“Section 1331’s general
grant of federal question jurisdiction, however, ‘does not
by its own terms waive sovereign immunity and vest
in district courts plenary jurisdiction’ over claims for
money judgments against the United States.” (citation
omitted)). And “[t]ribal sovereign immunity is deemed to
be coextensive with the sovereign immunity of the United
States.” Miner Elec., Inc. v. Muscogee (Creek) Nation,
505 F.3d 1007, 1011 (10th Cir. 2007); see Bay Mills, 572
U.S. at 789 (citing United States v. U.S. Fid. & Guar. Co.,
309 U.S. 506, 512, 60 S. Ct. 653, 84 L. Ed. 894 (1940)). It
therefore follows that § 1331 “is not a general waiver” of
tribal sovereign immunity. See Whittle, 7 F.3d at 1262.
Indeed, the Tenth Circuit rejects this same argument.
In Miner Electric, plaintiffs sought declaratory and
injunctive relief related to a forfeiture order issued by the
Nation’s tribal court, arguing that the court did not have
jurisdiction over them. 505 F.3d at 1008. The Nation moved
to dismiss the complaint on sovereign immunity grounds,

9a
Appendix A
and the district court denied the motion, reasoning that it
had “the authority [under § 1331] to determine whether a
tribal court had the power to exercise civil subject matter
jurisdiction over a non-Indian’s property rights.” Id. at
1009, 1011. The Tenth Circuit reversed and remanded
for dismissal under Fed. R. Civ. P. 12(b)(1), holding that
“federal-question jurisdiction [does not] negate[] an Indian
tribe’s immunity from suit” because “nothing in § 1331
unequivocally abrogates tribal sovereign immunity.” Id.
at 1011.
The district court here, in implicitly reasoning
otherwise, cited National Farmers Union Insurance Cos.
v. Crow Tribe of Indians, 471 U.S. 845, 105 S. Ct. 2447,
85 L. Ed. 2d 818 (1985), specifically the Court’s statement
that “[t]he question whether an Indian tribe retains the
power to compel a non-Indian property owner to submit
to the civil jurisdiction of a tribal court is one that must
be answered by reference to federal law and is a ‘federal
question’ under § 1331.” Id. at 852. That reasoning,
however, answers a different question that the parties
here do not dispute: whether this case presents a federal
question. That is, § 1331 concerns whether the court has
jurisdiction over the claims raised. But “[t]he fact that
Congress grants jurisdiction to hear a claim does not
suffice to show Congress has abrogated all defenses to
that claim.” Blatchford v. Native Vill. of Noatak & Circle
Vill., 501 U.S. 775, 786 n.4, 111 S. Ct. 2578, 115 L. Ed. 2d
686 (1991); Whittle, 7 F.3d at 1262.
The Court in National Farmers went no further,
resolving that petitioners needed to first exhaust their

10a
Appendix A
tribal court remedies before a federal court could
entertain the claim. See El Paso Natural Gas. Co. v.
Neztsosie, 526 U.S. 473, 478, 119 S. Ct. 1430, 143 L.
Ed. 2d 635 (1999) (explaining that National Farmers
announced the “tribal-court exhaustion” rule). In fact, the
Supreme Court has expressed doubt that § 1331 abrogates
sovereign immunity, holding in Blatchford that 28 U.S.C.
§ 1362—which grants district courts original jurisdiction
over “all civil actions, brought by any Indian tribe or band
. . . aris[ing] under the Constitution, laws, or treaties of
the United States”—does not reflect an “unmistakably
clear” intent to abrogate state sovereign immunity in suits
brought against States by Indian tribes. 501 U.S. at 786.
In so holding, it reasoned that § 1362’s “text is no more
specific than § 1331 . . . , and no one contends that § 1331
suffices to abrogate immunity for all federal questions.” Id.
We reject Spurr’s reliance on § 1331 as supporting
this court’s exercising subject-matter jurisdiction here
and hold that tribal sovereign immunity bars the claims
against the Band and the NHBP Supreme Court. See
Miner, 505 F.3d at 1011. The district court thus erred
by denying the motion to dismiss those claims for lack
of subject-matter jurisdiction. We affirm dismissal on
sovereign immunity grounds. United States ex rel. Harper
v. Muskingum Watershed Conservancy Dist., 842 F.3d
430, 435 (6th Cir. 2016) (“This court may affirm on any
grounds supported by the record, even those not relied
on by the district court.”).

11a
Appendix A
B. The Source of Tribal Jurisdiction
Having dispensed with Spurr’s claims against the
Band and NHBP, only the claims against Chief Judge Pope
remain. The Band explicitly waived sovereign immunity
as to the Chief Judge, so we finally get to the meaty
question of whether federal law vests the NHBP tribal
court with jurisdiction to issue this personal protection
order against Spurr.
Indian tribes have the “right to make their own
laws and be governed by them.” Nevada v. Hicks, 533
U.S. 353, 361, 121 S. Ct. 2304, 150 L. Ed. 2d 398 (2001).
This inherent sovereign authority includes the power to
determine tribal membership, regulate relations among
its members, and punish tribal offenders. Id. But this
authority generally “do[es] not extend to the activities
of nonmembers of the tribe.” Montana v. United States,
450 U.S. 544, 565, 101 S. Ct. 1245, 67 L. Ed. 2d 493 (1981);
Hicks, 533 U.S. at 359. When it comes to non-Indians and
nonmembers, the “exercise of tribal power beyond what is
necessary to protect tribal self-government or to control
internal relations is inconsistent with the dependent
status of the tribes, and so cannot survive without express
congressional delegation.” Montana, 450 U.S. at 564; see
South Dakota v. Bourland, 508 U.S. 679, 695 n.15, 113 S.
Ct. 2309, 124 L. Ed. 2d 606 (1993). Thus, to exercise tribal
authority over nonmembers, an Indian tribe must point
to one of two sources of power: its inherent sovereign
authority or an Act of Congress. Hicks, 533 U.S. at 360;
Strate v. A-1 Contrs., 520 U.S. 438, 445-46, 117 S. Ct. 1404,
137 L. Ed. 2d 661 (1997).

12a
Appendix A
The parties argue only the second source, focusing
their arguments on different statutes, both enacted as
part of the Violence Against Women Reauthorization
Act of 2013, Pub. L. No. 113-4, 127 Stat. 54 (2013). The
Band argues that 18 U.S.C. § 2265(e) expressly grants
tribal courts the power to issue civil PPOs against any
person, a category of persons that, of course, includes a
non-Indian, nonmember like Spurr. Spurr counters that
a different statute, 25 U.S.C. § 1304, governs this tribal
action and grants tribal courts jurisdiction to issue PPOs
only against some non-Indians and nonmembers—those
with specific ties to the tribe (of which she has none). The
district court agreed with the Band, and so do we.
“A matter requiring statutory interpretation is a
question of law requiring de novo review, and the starting
point for interpretation is the language of the statute itself.”
Vander Boegh v. EnergySolutions, Inc., 772 F.3d 1056, 1059
(6th Cir. 2014) (quoting Roberts v. Hamer, 655 F.3d 578,
582 (6th Cir. 2011)). If the text makes clear the statute’s
meaning, we go no further. Desert Palace, Inc. v. Costa,
539 U.S. 90, 98, 123 S. Ct. 2148, 156 L. Ed. 2d 84 (2003);
see Caminetti v. United States, 242 U.S. 470, 485, 490, 37
S. Ct. 192, 61 L. Ed. 442 (1917) (“[T]he sole function of the
courts is to enforce [the law] according to its terms . . . .
[I]t is neither the duty nor the privilege of the courts to
enter speculative fields in search of a different meaning.”).
1. 18 U.S.C. § 2265(e)
As argued by the Band, § 2265(e) unambiguously
grants tribal courts the power exercised by the NHBP
tribal court here. It reads:

13a
Appendix A
(e) Tribal court jurisdiction.--For purposes
of this section, a court of an Indian tribe
shall have full civil jurisdiction to issue and
enforce protection orders involving any person,
including the authority to enforce any orders
through civil contempt proceedings, to exclude
violators from Indian land, and to use other
appropriate mechanisms, in matters arising
anywhere in the Indian country of the Indian
tribe (as defined in section 1151) or otherwise
within the authority of the Indian tribe.
18 U.S.C. § 2265(e) (emphasis added). This text authorizes
Indian tribal courts to issue and enforce civil protection
orders against any person—Indian or non-Indian, tribal
member or non-tribal member—in matters arising in the
Indian country of an Indian tribe. 2 Spurr of course cannot
contest that the NHBP tribal court is “a court of an Indian
tribe,” her fit within the category of “any person,” or that
this matter arises in the Indian country of the Band.
But Spurr does dispute whether this PPO is a civil
protection order. She suggests that the tribal court here
issued a criminal protection order, an action not authorized
2. This express delegation of authority to tribes obviates
Spurr’s suggestion that a tribe also must meet one of the two
Montana exceptions. See 540 U.S. at 564; Cty. of Oneida v. Oneida
Indian Nation, 470 U.S. 226, 237, 105 S. Ct. 1245, 84 L. Ed. 2d 169
(1985) (“[F]ederal common law is used . . . when Congress has not
‘spoken to a particular issue.’” (quotation omitted)); Thlopthlocco
Tribal Town v. Stidham, 762 F.3d 1226, 1234 (10th Cir. 2014)
(describing Montana as “federal common law”).

14a
Appendix A
by § 2265(e), citing NHBP law, the PPO’s language, its
“severe restrictions on [her] freedom of movement and
communication,” and the penalties for violating it. Her
arguments referencing the PPO’s language and NHBP
law unavoidably run together and, as the NHBP Supreme
Court noted, NHBP law “perhaps could be made clearer.”
R. 22-2, PageID 258.
The NHBP Code authorizes a tribal court to issue a
“civil protection order,” NHBP Code § 7.4-49, on behalf
of “any person claiming to be the victim of . . . stalking,”
NHBP Code § 7.4-50. And the Code also states that
“[t]his article is intended to provide victims [of harassment]
with a speedy and inexpensive method of obtaining civil
harassment protection orders preventing all further
unwanted contact between the victim and the perpetrator.”
NHBP Code § 7.4-71 (emphasis added).
In granting the PPO, titled “Personal Protection
Order (Non-Domestic) (Stalking),” the tribal court found
that Spurr engaged in “conduct prohibited under the
[NHBP] Domestic Violence Code.” R. 1-3, PageID 31. And
the PPO’s text states that Nathaniel’s petition “has been
filed and is enforceable under the authority of . . . 18 U.S.C.
§ 2265,” R. 1-3, PageID 31, a statute that authorizes tribal
courts to issue only civil protection orders. But Spurr
seizes on language in the tribal court’s opinion refusing
to reconsider or modify its order that refers to the PPO
as a “Permanent Harassment Protection Order,” which
rests under the heading of “Criminal Protection Orders.”
NHBP Code § 7.4-72, 73. She also points to NHBP law,
which defines “stalking” as a crime in § 7.4-42(a) of the
Domestic Violence Code.

15a
Appendix A
On appeal, after wrestling with this inartful drafting
and Spurr’s arguments, the NHBP Supreme Court held
that the Tribal Code authorizes tribal courts to issue civil
PPOs for stalking or harassment, which includes the PPO
issued here. R. 22-2, PageID 258-59. And “[o]rdinarily, we
defer to tribal court interpretations of tribal law ‘because
tribal courts are best qualified to interpret and apply
tribal law.’” Kelsey v. Pope, 809 F.3d 849, 864 (6th Cir.
2016) (quoting Iowa Mut. Ins. Co. v. LaPlante, 480 U.S.
9, 16, 107 S. Ct. 971, 94 L. Ed. 2d 10 (1987)).
But even without this decision from the Band’s highest
court, Spurr’s argument falls short. The tribal court’s
decision to issue the PPO explicitly to prohibit stalking
supports the conclusion that the court issued a civil PPO
on behalf of a “victim of . . . stalking,” NHBP Code § 7.450. So does its express statement that the petition was
filed and enforceable under § 2265. R. 1-3, PageID 31. And
though the Domestic Violence Code does list “stalking” as
a crime, NHBP law explicitly authorizes a tribal court to
issue a “civil protection order” on the behalf of a “victim
of . . . stalking.” NHBP Code § 7.4-49, 50.
That leaves us with Spurr’s contention that the
penalties for violating the PPO and its restrictions on
her “freedom of movement and communication” make
it criminal in nature. The PPO states that “[v]iolation of
this order subjects [Spurr] to immediate arrest and to
the civil and criminal contempt powers of the court. If
found guilty, the respondent shall be imprisoned for not
more than 90 days and/or may be fined not more than
$1,000.00.” R. 1-3, PageID 31. But the fact that Spurr faces

16a
Appendix A
criminal contempt or imprisonment if she violates this
PPO fails to change the nature of the order. See United
States v. Bayshore Assocs., Inc., 934 F.2d 1391, 1400 (6th
Cir. 1991) (“Incarceration has long been established as
an appropriate sanction for civil contempt.”); Smith v.
Leis, 407 F. App’x 918, 920 (6th Cir. 2011) (noting that
the Sheriff’s Office arrested the defendant for “violating
the terms of a civil protection order”). The same goes for
its restrictions on her movement and communication. See
Morrison v. Warren, 375 F.3d 468, 470 (6th Cir. 2004) (civil
protection order issued against husband for allegations of
domestic abuse prohibited him “from possessing, using,
carrying, or obtaining any deadly weapon for up to five
years”); Kelm v. Hyatt, 44 F.3d 415, 417-18 (6th Cir. 1995)
(domestic violence victim sought and obtained a civil
protection order requiring her husband to “vacate the
marital residence”).
The Band notes that it modeled its civil PPO’s language
after the Michigan statute authorizing a state court to
issue civil PPOs under state law for stalking. The Band
even went so far as to copy Michigan’s list of restricted
conduct. Compare R. 1-3 ¶ 5, PageID 31, with Mich. Comp.
Laws § 600.2950a(3). Moreover, it flags that the tribal
court ultimately issued “civil contempt” sanctions (in the
form of attorney’s fees) for Spurr’s violation of the court’s
order, not any criminal penalties. See McMahan & Co.
v. Po Folks, Inc., 206 F.3d 627, 634 (6th Cir. 2000) (“[A]n
award of attorney’s fees is appropriate for civil contempt
in situations where court orders have been violated.”). For
all those reasons, we disagree with Spurr: The tribal court
issued a civil protection order against her.

17a
Appendix A
Spurr also presses a contextual argument that fares
no better. She argues that § 2265’s title—“Full faith
and credit given to protection orders”—reveals that its
provisions do not grant tribal courts the power to issue
PPOs; rather, § 2265 provides full faith and credit for
protection orders issued under statutes that do authorize
issuing protection orders. But “the title of a statute and
the heading of a section cannot limit the plain meaning
of the text.” Bhd. of R.R. Trainmen v. Baltimore & Ohio
R. Co., 331 U.S. 519, 528-29, 67 S. Ct. 1387, 91 L. Ed. 1646
(1947); Pennsylvania Dep’t of Corr. v. Yeskey, 524 U.S.
206, 212, 118 S. Ct. 1952, 141 L. Ed. 2d 215 (1998). That’s
especially true when § 2265(e)’s heading reads: “Tribal
court jurisdiction.”
Titles “are but tools available for the resolution of a
doubt.” Bhd. of R.R. Trainmen, 331 U.S. at 529. Thus,
“considering the title is not appropriate unless the statute
is ambiguous.” United States v. Cain, 583 F.3d 408, 416
(6th Cir. 2009). And we find no ambiguity here. Section
2265 unequivocally states that tribal courts “shall have
full civil jurisdiction to issue and enforce protection orders
involving any person.” § 2265(e). Its title “cannot undo or
limit” what the text makes plain. Bhd. of R.R. Trainmen,
331 U.S. at 529; see Antonin Scalia & Bryan A. Garner,
Reading Law: The Interpretation of Legal Texts 222
(2012) (“[A] title or heading should never be allowed to
override the plain words of a text.”).
2. 25 U.S.C. § 1304
That brings us to Spurr’s argument that an entirely
different statute, 25 U.S.C. § 1304, defeats the Band’s

18a
Appendix A
reliance on 18 U.S.C. § 2265. She argues that § 1304
grants tribal courts the power to issue criminal and civil
PPOs, but only when the defendant has specific ties to the
tribe. Section 1304 provides participating tribes “special
domestic violence criminal jurisdiction over a defendant
for criminal conduct that falls into one or more of the
following categories”: (1) domestic violence and dating
violence; or (2) violations of protection orders. 25 U.S.C.
§ 1304(c). For defendants lacking ties to the Indian tribe,
§ 1304(b)(4)(B) authorizes the exercise of this “special
domestic violence criminal jurisdiction” only when a
defendant:
(i) resides in the Indian country of the participating
tribe;
(ii) is employed in the Indian countr y of the
participating tribe; or
(iii) is a spouse, intimate partner, or dating partner
of—
(I) a member of the participating tribe; or
(II) an Indian who resides in the Indian country
of the participating tribe.
Spurr argues that, because she meets none of these
criteria, the tribal court had no authority to issue the
PPO against her.
But the tribal court did not exercise its “special
domestic violence jurisdiction.” Not one of § 1304’s

19a
Appendix A
jurisdictional hooks—domestic violence or dating violence
or violations of protection orders—were satisfied. 25
U.S.C. § 1304(c). As defined by the statute, Spurr did not
engage in acts of dating or domestic violence. § 1304(a)(1)(2); R. 33, PageID 399. Nor did the tribal court exercise
jurisdiction over Spurr for the violation of a protection
order. § 1304(c)(2)(B). Rather, as discussed above, the
tribal court exercised civil jurisdiction to issue a civil
PPO for stalking.
Spurr insists that § 1304(a)(5) supports her stance,
but it does not. That section defines “protection order” to:
(A) mean[] any injunction, restraining order,
or other order issued by a civil or criminal
court for the purpose of preventing violent or
threatening acts or harassment against, sexual
violence against, contact or communication
with, or physical proximity to, another person;
and
(B) include[] any temporary or final order
issued by a civil or criminal court . . . if the
civil or criminal order was issued in response
to a complaint, petition, or motion filed by or on
behalf of a person seeking protection.
25 U.S.C. § 1304(a)(5) (emphasis added). This language
speaks of already-issued PPOs, however, such that the
PPO could have been violated—one of the statute’s
jurisdictional hooks. § 1304(c)(2). In other words, § 1304(a)
(5) defines the types of protection orders that—if

20a
Appendix A
violated—authorize a tribal court to exercise its “special
domestic violence criminal jurisdiction.” That section
does not authorize tribal courts to issue PPOs—whether
civil or criminal—in the first instance. As the district
court correctly put it, this statute and 18 U.S.C. § 2265(e)
“govern two different subject areas.” R. 33, PageID 399.
***
Because 18 U.S.C. § 2265(e) grants Indian tribal
courts the power to issue civil protection orders against
any person in matters arising in the Indian country of
the Indian tribe, we uphold the issuance of this civil PPO
against Spurr as valid, affirming dismissal of the claims
against the Band and the NHBP Supreme Court on
sovereign immunity grounds.
IV. CONCLUSION
We AFFIRM the district court’s judgment.

21a
APPENDIX B —Appendix
OPINIONBAND ORDER OF
THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
MICHIGAN, SOUTHERN DIVISION
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN,
SOUTHERN DIVISION
Case No. 1:17-cv-1083
JOY SPURR,
Plaintiff,
v.
MELISSA L. POPE, et al.,
Defendants.
September 27, 2018, Decided
September 27, 2018, Filed
HON. JANET T. NEFF, United States District Judge.
OPINION AND ORDER
Plaintiff Joy Spurr, represented by her husband,
Stephen Spurr, initiated this case against Melissa L.
Pope, identified as the Chief Judge of Tribal Court
of Nottawaseppi Huron Band of the Potawatomi; the
Supreme Court for the Nottawaseppi Huron Band of
Potawatomi; and the Nottawaseppi Huron Band of

22a
Appendix B
Potawatomi Indians (ECF No. 1). The matter is before the
Court on Defendants’ Joint Motion to Dismiss (ECF No.
29), seeking dismissal of Plaintiff’s Complaint for lack of
subject-matter jurisdiction and failure to state a claim on
which relief can be granted. See Fed. R. Civ. P. 12(b)(1),
(6). Having considered the parties’ submissions, the Court
concludes that oral argument is unnecessary to resolve
the issues presented. See W.D. Mich. LCivR 7.2(d). For the
reasons that follow, the Court grants Defendants’ motion.
I. BACKGROUND
Neither Plaintiff nor Stephen Spurr is a member of
the Nottawaseppi Huron Band of Potawatomi Indians
(“the Tribe”) (ECF No. 1-1 at PageID.7-9). They do not
live on the reservation (ECF No. 1-4 at PageID.34).
However, Stephen Spurr was previously married to a
Tribe member, Laura Spurr (ECF No. 1-1 at PageID.7-9).
Stephen Spurr has an adult son, Nathaniel Spurr, who
lives on the reservation (ECF No. 1-4 at PageID.32, 34).
This case arises from the February 17, 2017 issuance of
a Non-Domestic Personal Protection Order (PPO) by the
Nottawaseppi Huron Band of Potawatomi (NHBP) Tribal
Court (“the Tribal Court”) against Plaintiff as respondent
in NHBP Case No. 17-046-PPO/ND (ECF No. 1-3). The
PPO prohibited Plaintiff from “stalking” Nathaniel
Spurr, the petitioner (id.). Plaintiff moved for reversal by
the Supreme Court for the Nottawaseppi Huron Band of
Potawatomi, which was denied on December 6, 2017 (ECF
No. 1-10 at PageID.101).
On December 11, 2017, Plaintiff filed a four-page
“Complaint for Declaratory Judgment and Injunctive

23a
Appendix B
Relief” (ECF No. 1) in this Court, as well as a 26-page
“Brief in Support” (ECF Nos. 1-1 & 1-2). Plaintiff’s
Complaint does not delineate any counts, but her brief
includes a “Statement of the Legal Issues,” as follows:
A. Did the Evidence Before the Trial Court Support
the Court’s Findings that the Plaintiff was
engaged in “Stalking” as defined under the
NHBP Domestic Violence Code?
B. Putting Aside the Issue of Jurisdiction, Should
the Trial Court Have Issued a Permanent
Personal Protection Order Against the Plaintiff
Based on the Evidence Before the Court?
C. If a Permanent Protection Order Against
“Stalking” is considered a Criminal Sanction,
Did the Trial Court have Jurisdiction to Issue It
Against the Plaintiff Under NHBP Tribal Law
or United States Law?
D. If a Permanent Protection Order Against
“Stalking” is considered a Civil Sanction, Did the
Trial Court have Jurisdiction to Issue It Against
the Plaintiff Under NHBP Tribal Law or United
States Law?
E. If the Trial Court did not Have Jurisdiction to
Issue its Permanent Protection Order Against
the Plaintiff, Was the Trial Court Justified
in Submitting its Order to the Michigan Law
Enforcement Information Network?

24a
Appendix B
F. Would the Pla inti ff suffer a Continuing,
Irreparable Harm in the Absence of Preliminary
Injunctive Relief?
G. Has the Plaintiff Exhausted Her Remedies, by
Challenging the Tribal Court’s Jurisdiction in
Federal Court?
(ECF No. 1-1 at PageID.11-12).
Plaintiff also included an “Appendix” with three more
“Related Procedural Issues,” as follows:
H. Was it Appropriate for the Trial Court to Suggest
to the Petitioner that his Personal Protection
Order could be renewed annually, unless the
Plaintiff could prove she had not harassed him?
I.

What are Other Consequences of Entering a
Permanent Protection Order into the Michigan
Law Enforcement Information Network?

J.

Should the Trial Court Have Granted the
Plaintiff’s Request to Postpone the Hearing to a
Date Later than February 16, 2017?

(ECF No. 1-2 at PageID.26-29).
Plaintiff seeks a declaratory judgment “that (1)
the Defendants do not have personal or subject matter
jurisdiction to issue against the Plaintiff the temporary
and permanent personal protection orders that have

25a
Appendix B
been issued by the Defendant ... Judge Pope; and (2)
the Defendants are legally required to withdraw the
permanent protection order from the Michigan Law
Enforcement Information Network [LEIN]” (ECF
No. 1 at PageID.3). Plaintiff also seeks preliminary
injunctive relief in the form of an injunction “to prevent
the Defendants from unlawfully pursuing proceedings
against the Plaintiff based on the permanent Personal
Protection order, and from maintaining the Order on
the Michigan Law Enforcement Information Network”
(id.). Last, although not included in its title, Plaintiff’s
“Complaint for Declaratory Judgment and Injunctive
Relief” seeks “damages against the Defendants, jointly
and severally” (id.).
On January 25, 2018, Defendants jointly moved for
a Pre-Motion Conference, proposing to file a motion to
dismiss (ECF No. 13). On January 30, 2018, the Court
noticed a Pre-Motion Conference for March 12, 2018 (ECF
No. 18). On January 31, 2018, Plaintiff filed in this Court an
“Emergency Motion for a Temporary Restraining Order
and for Scheduling a Hearing on a Preliminary Injunction”
(ECF No. 19). This Court denied Plaintiff’s request for
a TRO and indicated that the Court would address the
topic of preliminary injunctive relief at the scheduled
proceeding on March 12, 2018 (Order, ECF No. 20).
Following the combined Pre-Motion Conference and
Motion Hearing on March 12, 2018, this Court issued
an Order denying Plaintiff’s request for a Preliminary
Injunction for the reasons stated on the record and setting
forth a briefing schedule on Defendants’ proposed motion

26a
Appendix B
to dismiss (Order, ECF No. 26). In May 2018, Defendants
filed their Motion to Dismiss (ECF No. 29). Plaintiff filed
a response in opposition (ECF No. 31), and Defendants
filed a Reply (ECF No. 32).
II. ANALYSIS
A. Motion Standards
Defendants move to dismiss this case under Rules
12(b)(1) and 12(b)(6) of the Federal Rules of Civil
Procedure. Rule 12(b)(1) permits dismissal for a lack of
subject-matter jurisdiction. Fed. R. Civ. P. 12(b)(1). “When
the defendant challenges subject matter jurisdiction
through a motion to dismiss, the plaintiff bears the burden
of establishing jurisdiction.” Angel v. Kentucky, 314 F.3d
262, 264 (6th Cir. 2002) (quoting Hedgepeth v. Tennessee,
215 F.3d 608, 611 (6th Cir. 2000)). See also Moir v. Greater
Cleveland Regional Transit Auth., 895 F.2d 266, 269 (6th
Cir. 1990). Motions to dismiss for lack of subject-matter
jurisdiction take one of two forms: (1) facial attacks and
(2) factual attacks. United States v. A.D. Roe Co., Inc.,
186 F.3d 717, 721-22 (6th Cir. 1999). If the jurisdictional
attack is facial, then the court must accept the allegations
in the complaint as true and construe them in a light
most favorable to the non-moving party. Id. If the attack
is factual, however, then the court may look to material
outside the pleadings and make factual findings. Id. See
also Nichols v. Muskingum Coll., 318 F.3d 674, 677 (6th
Cir. 2003) (“In reviewing a 12(b)(1) motion, the court may
consider evidence outside the pleadings to resolve factual
disputes concerning jurisdiction, and both parties are free

27a
Appendix B
to supplement the record by affidavits.”); Ohio Nat’l Life
Ins. Co. v. U.S., 922 F.2d 320, 325 (6th Cir. 1990) (“The
court has wide discretion to consider material outside the
complaint in assessing the validity of its jurisdiction.”).
Federal Rule of Civil Procedure 12(b)(6) authorizes
the court to dismiss a complaint if it “fail[s] to state a
claim upon which relief can be granted[.]” Fed. R. Civ.
P. 12(b)(6). In deciding a motion to dismiss for failure
to state a claim, the court must construe the complaint
in the light most favorable to the plaintiff and accept all
well-pleaded factual allegations in the complaint as true.
Thompson v. Bank of Am., N.A., 773 F.3d 741, 750 (6th
Cir. 2014). To survive a motion to dismiss, the complaint
must present “enough facts to state a claim to relief that
is plausible on its face.” Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 557, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929
(2007). “[T]he tenet that a court must accept as true all of
the allegations contained in a complaint is inapplicable to
legal conclusions. Threadbare recitals of the elements of a
cause of action, supported by mere conclusory statements,
do not suffice.” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S.
Ct. 1937, 173 L. Ed. 2d 868 (2009). See also Commercial
Money Ctr., Inc. v. Ill. Union Ins. Co., 508 F.3d 327,
335-36 (6th Cir. 2007) (“When a document is referred to
in the pleadings and is integral to the claims, it may be
considered without converting a motion to dismiss into
one for summary judgment.”).
B. Discussion
“Federal courts are courts of limited jurisdiction.”
Insurance Corp. of Ireland, Ltd. v. Compagnie des

28a
Appendix B
Bauxites de Guinee, 456 U.S. 694, 701, 102 S. Ct. 2099,
72 L. Ed. 2d 492 (1982). “Without jurisdiction the court
cannot proceed at all in any cause. Jurisdiction is power
to declare the law, and when it ceases to exist, the only
function remaining to the court is that of announcing the
fact and dismissing the cause.” Steel Co. v. Citizens for a
Better Env’t, 523 U.S. 83, 94, 118 S. Ct. 1003, 140 L. Ed.
2d 210 (1998) (quoting Ex parte McCardle, 74 U.S. 506, 7
Wall. 506, 514, 19 L. Ed. 264; 74 U.S. 506, 19 L. Ed. 264
(1868)). Indeed, the Court has an obligation to dismiss an
action “at any time” it decides that “it lacks subject-matter
jurisdiction.” Fed. R. Civ. P. 12(h)(3).
Plaintiff alleges this Court has jurisdiction over the
subject matter of her Complaint pursuant to the Indian
Civil Rights Act, 25 U.S.C. § 1302; the Declaratory
Judgment Act, 28 U.S.C. § 2201; and the federal-question
statute, 28 U.S.C. § 1331 (ECF No. 1 at PageID.2). The
Court will consider the parties’ arguments under each of
these three alleged jurisdictional bases, in turn.1
1. The Indian Civil Rights Act
Defendants argue that the Indian Civil Rights Act
(ICRA), 25 U.S.C. §§ 1301-1303, does not provide this
Court with subject matter jurisdiction over Plaintiff’s
Complaint (ECF No. 30 at PageID.360-361). Despite
including the ICRA in the jurisdictional statement of her
1. Given its conclusions herein, the Court does not reach
Defendants’ alternative argument that this Court should dismiss
the claims against Defendants NHBP and the NHBP on the basis
of sovereign immunity.

29a
Appendix B
Complaint, Plaintiff does not address its applicability in
her response to Defendants’ motion to dismiss.
Defendants’ argument has merit.
With the passage of the ICRA, Congress imposed
“certain restrictions upon tribal governments similar,
but not identical, to those contained in the Bill of Rights
and the Fourteenth Amendment.” Santa Clara Pueblo v.
Martinez, 436 U.S. 49, 57, 98 S. Ct. 1670, 56 L. Ed. 2d 106
(1978). “[Section] 1302 does not impliedly authorize actions
for declaratory or injunctive relief against either the tribe
or its officers.” Id. at 72. “In 25 U.S.C. § 1303, the only
remedial provision expressly supplied by Congress, the
‘privilege of the writ of habeas corpus’ is made ‘available
to any person, in a court of the United States, to test the
legality of his detention by order of an Indian tribe.’”
Id. at 58. See also LaBeau v. Dakota, 815 F. Supp. 1074,
1076 (W.D. Mich. 1993) (“Congress did not provide a
private right of action in the Indian Civil Rights Act...”).
Therefore, even assuming arguendo that Plaintiff has
not waived this claimed basis for jurisdiction, the Court
agrees with Defendants that the ICRA does not provide
the Court with subject matter jurisdiction in this case.
2. The Declaratory Judgment Act
Defendants argue that the Declaratory Judgment Act,
28 U.S.C. § 2201, likewise fails to confer this Court with
subject matter jurisdiction in this case (ECF No. 30 at
PageID.361-362). Again, despite including the Declaratory
Judgment Act in the jurisdictional statement of her

30a
Appendix B
Complaint, Plaintiff does not address its applicability in
her response to Defendants’ motion to dismiss.
Defendants’ argument has merit.
“[T]he operation of the Declaratory Judgment Act
is procedural only.” Skelly Oil Co. v. Phillips Petroleum
Co., 339 U.S. 667, 671, 70 S. Ct. 876, 94 L. Ed. 1194 (1950)
(citation omitted). “Congress enlarged the range of
remedies available in the federal courts but did not extend
their jurisdiction.” Id. Hence, “[t]he plaintiff’s claim itself
must present a federal question.” Id. Therefore, assuming
arguendo that Plaintiff has not also waived this claimed
basis for jurisdiction, the Court agrees with Defendants
that the Declaratory Judgment Act does not provide the
Court with subject matter jurisdiction.
3. The Federal-Question Statute
Similarly, the federal-question statute, 28 U.S.C.
§ 1331, does not, in and of itself, supply a substantive basis
for federal jurisdiction. Section 1331 provides that “[t]he
district courts shall have original jurisdiction of all civil
actions arising under the Constitution, laws, or treaties
of the United States.” 28 U.S.C. § 1331. In other words,
§ 1331 merely gives the federal district court jurisdiction
when a federal question arises based on other federal law.
See Gully v. First Nat’l Bank, 299 U.S. 109, 112, 57 S. Ct.
96, 81 L. Ed. 70 (1936) (“To bring a case within [§ 1331], a
right or immunity created by the Constitution or laws of
the United States must be an element, and an essential
one, of the plaintiff’s cause of action.”).

31a
Appendix B
As noted supra, Plaintiff did not state her claims in her
Complaint as required by Federal Rule of Civil Procedure
10(b), but this Court will consider the ten issues Plaintiff
presented in her accompanying brief and appendix to
determine if she has identified a federal question for
review. Plaintiff’s Issues A and B address the sufficiency
of the evidence under the NHBP statutory definition of
stalking in support the Tribal Court’s issuance of the PPO
against her (ECF No. 1-1 at PageID.12-18). Plaintiff’s
Issues C and D concern the Tribal Court’s jurisdiction to
issue the PPO against her, a non-tribal member, as either
a criminal or civil sanction (id. at PageID.17-21). In Issue
E, Plaintiff challenges the propriety of submitting the
PPO on Michigan’s LEIN system (id. at PageID.21). This
Court has already resolved Issue F, Plaintiff’s request for
a preliminary injunction (id. at PageID.21-23). Issue G
concerns whether Plaintiff exhausted her remedies in the
Tribal system (id. at PageID.23-24). And Issues H, I and J
are “related procedural issues” concerning how the Tribal
Court entered the PPO (ECF No. 1-2 at PageID.26-29).
a.

Tribal-Law Claims

Defendants argue that with the exception of Plaintiff’s
challenge to the Tribal Court’s jurisdiction, Plaintiff’s
claims are grounded solely in the asserted requirements
of tribal law, not federal law (ECF No. 30 at PageID.359).
Defendants conclude that this Court is not empowered to
speak on these questions (id.).
In her response to Defendants’ motion to dismiss,
Plaintiff does not dispute that her claims in Issues A, B,

32a
Appendix B
E, G, H, I and J do not “aris[e] under the Constitution,
laws, or treaties of the United States” for purposes of
federal-question jurisdiction under § 1331.
Defendants’ argument has merit.
The Court determines it lacks jurisdiction over the
subject matter of Plaintiff’s tribal-law claims. See, e.g.,
Talton v. Mayes, 163 U.S. 376, 385, 16 S. Ct. 986, 41 L. Ed.
196 (1896) (“[T]he determination of what was the existing
law of the Cherokee nation . . . [was] solely [a] matter[]
within the jurisdiction of the courts of that nation, and the
decision of such a question in itself necessarily involves
no infraction of the Constitution of the United States”);
Shelifoe v. Dakota, 966 F.2d 1454, at *1 [published in
full-text format at 1992 U.S. App. LEXIS 14670] (6th
Cir. 1992) (“[T]he district court lacks jurisdiction to
review a challenge to the propriety or wisdom of a tribal
court’s decision.”); Lesperance v. Sault Ste. Marie Tribe
of Chippewa Indians, 259 F. Supp. 3d 713, 722 (W.D.
Mich. 2017) (“Whether the Tribe correctly interpreted
and applied its own ordinance does not present a federal
question.”). Hence, Plaintiff has not borne her burden of
demonstrating any jurisdictional basis for this Court to
review her tribal-law claims, and the tribal-law claims are
properly dismissed under Fed. R. Civ. P. 12(b)(1).
b.

Jurisdictional Claim

Defendants concede that unlike Plaintiff’s tribal-law
claims, federal-question jurisdiction lies over her claim
that the Tribal Court lacked jurisdiction to issue the PPO

33a
Appendix B
as a matter of federal law (ECF No. 30 at PageID.362),
i.e., Plaintiff’s remaining Issues C and D. Although
they concede subject matter jurisdiction exists over the
jurisdictional claim, Defendants request that this Court
dismiss the claim “against all Defendants under Rule 12(b)
(6) because the claim is squarely foreclosed by Congress’
unambiguous recognition of tribal jurisdiction in 18
U.S.C. § 2265(e)” (ECF No. 30 at PageID.362). According
to Defendants, the jurisdictional claim turns on a pure
question of law and is “not plausible on its face” (id.).
In her response, which incorporates some of her
earlier briefing on the topic, Plaintiff “agree[s] with the
Defendants’ statement that Joy Spurr’s claim is suitable
for disposition without further briefing, apart from the
issues of damages, costs and attorney fees” (ECF No. 31 at
PageID.374). However, contrary to Defendants’ reliance on
18 U.S.C. § 2265(e), Plaintiff contends that 25 U.S.C. § 1304
instead indicates Congress’ clear intent to not authorize
tribal courts to issue PPOs against non-tribal members
over crimes of domestic violence (id. at PageID.374-375).
Plaintiff asserts that § 2265 “is about ‘full faith and
credit given to protection orders,’ not jurisdiction” (ECF
No. 23 at PageID.307). According to Plaintiff, if this
Court looks to § 1304, then the Court will conclude that
the Tribal Court lacked jurisdiction to issue the PPO in
this case because Plaintiff “does not fit within any of the
designated categories” delineated in § 1304(b)(4)(B) for
exercising jurisdiction against a defendant who “lacks
ties to the Indian tribe” (id. at PageID.306). Plaintiff
reiterates her request that the Court issue a declaratory
judgment that “the NHBP courts lacked jurisdiction

34a
Appendix B
to grant the personal protection order against her, and
issue a corresponding permanent injunction against the
Defendants, in view of the unambiguous language of 25
U.S.C. 1304” (ECF No. 31 at PageID.375).
In reply, Defendants argue that “the parties’ briefing
to date demonstrates that Plaintiff has no viable argument
to evade Congress’s clear mandate in 18 U.S.C. § 2265(e)”
(ECF No. 32 at PageID.380).
Defendants’ argument has merit.
Although this Court lacks jurisdiction to review a
challenge to the “propriety or wisdom” of a tribal court’s
decision, a remedy may be available to challenge the
jurisdiction of the tribal court. See Shelifoe, 966 F.2d at
*1 [published in full-text format at 1992 U.S. App. LEXIS
14670] (citing DeMent v. Oglala Sioux Tribal Court, 874
F.2d 510, 513 (8th Cir. 1989) (“The question of whether
an Indian tribe has the power to compel a non-Indian to
submit to the civil jurisdiction of a tribal court is a federal
question under 28 U.S.C. § 1331.”)).
Specifically, in Nat’l Farmers Union Ins. Companies
v. Crow Tribe of Indians, 471 U.S. 845, 852, 105 S. Ct. 2447,
85 L. Ed. 2d 818 (1985), where the petitioners contended
that the tribal court had no power to enter a judgment
against them, i.e., that “federal law has curtailed the
powers of the tribe,” the United States Supreme Court
decided that “[t]he question whether an Indian tribe
retains the power to compel a non-Indian property owner
to submit to the civil jurisdiction of a tribal court is one

35a
Appendix B
that must be answered by reference to federal law and
is a ‘federal question’ under § 1331.” The Supreme Court
pointed out that because the petitioners contended that
federal law divested the tribe of this aspect of sovereignty,
“it is federal law on which they rely as a basis for the
asserted right of freedom from Tribal Court interference,”
and “[t]hey have, therefore, filed an action ‘arising under’
federal law within the meaning of § 1331. Id. at 853. The
Supreme Court held that the district court correctly
concluded that a federal court may determine under § 1331
whether a tribal court has exceeded the lawful limits of
its jurisdiction. Id. See also Kelsey v. Pope, 809 F.3d 849,
854 (6th Cir. 2016) (deciding, as a federal question under
§ 1331, whether the Little River Band of Ottawa Indians
properly asserted extraterritorial criminal jurisdiction).
Here, too, the Court determines that it has federalquestion jurisdiction under § 1331 to determine whether
the Tribal Court exceeded the lawful limits of its
jurisdiction in issuing the PPO in this case. Accordingly,
the Court turns to the merits of Defendants’ argument
under Rule 12(b)(6) that Plaintiff has not stated a plausible
jurisdictional challenge.
In general, 18 U.S.C. § 2265 provides for “full faith and
credit” for protection orders issued by the courts of any
“State, Indian tribe, or territory.” Defendants correctly
rely on subsection (e) in this case, which provides more
specifically the following:
(e) Tribal court jurisdiction.—For purposes
of this section, a court of an Indian tribe

36a
Appendix B
shall have full civil jurisdiction to issue and
enforce protection orders involving any person,
including the authority to enforce any orders
through civil contempt proceedings, to exclude
violators from Indian land, and to use other
appropriate mechanisms, in matters arising
anywhere in the Indian country of the Indian
tribe (as defined in section 1151) or otherwise
within the authority of the Indian tribe.
18 U.S.C. § 2265(e). On its face, the “Personal Protection
Order (Non-Domestic) (Stalking)” (ECF No. 1-3) was filed
under 18 U.S.C. § 2265, and the plain text of subsection
(e) clearly establishes the Tribal Court’s “full civil
jurisdiction” under federal law to issue the order in this
case for the benefit of Nathaniel Spurr.
Plaintiff argues that if this Court instead looks to 25
U.S.C. § 1304 to determine if the Tribal Court exceeded
the lawful limits of its jurisdiction, then a different
conclusion is compelled. However, Plaintiff’s reliance on
§ 1304 misplaced. Section 1304 provides a participating
tribe with “special domestic violence criminal jurisdiction
over a defendant for criminal conduct that falls into one or
more of the following categories: (1) Domestic violence and
dating violence [and] (2) Violations of protection orders.”
25 U.S.C. § 1304(c) (“Criminal conduct”). Section 1304
sets forth the limits of a participating tribe’s “special
domestic violence criminal jurisdiction,” whereas § 2265(e)
establishes the tribe’s “full civil jurisdiction to issue and
enforce protection orders involving any person.” The two
statutes govern two different subject areas. In short,

37a
Appendix B
Plaintiff’s jurisdictional challenge is not plausible and is
properly dismissed under Fed. R. Civ. P. 12(b)(6).
III. CONCLUSION
For the foregoing reasons,
IT IS HEREBY ORDERED that Defendants’ Joint
Motion to Dismiss (ECF No. 29) is GRANTED, and
Plaintiff’s Complaint (ECF No. 1) is DISMISSED.
Because this Opinion and Order resolves all pending
claims in this matter, a corresponding Judgment will also
enter. See Fed. R. Civ. P. 58.
Dated: September 27, 2018

/s/ Janet T. Neff
JANET T. NEFF
United States District Judge

38a
Appendix
C
Appendix
C — RELEVANT
STATUTORY PROVISIONS
Comparison of 25 U.S.C. 1304(b)(4)(B) and 18 U.S.C.
2265(e) with Original Bills Introduced in Congress
H.R. 4154, in Section 204. Tribal Jurisdiction over
Crimes of Domestic Violence, provides in Section (d)
Dismissal of Certain Cases, the following in subsection
(3) Ties to Indian Tribe, the following at p. 13:
(3) TIES TO INDIAN TRIBE. In a criminal proceeding
in which a participating tribe exercises special domestic
violence criminal jurisdiction, the case shall be dismissed
if(B) the prosecuting tribe fails to prove that the
defendant or the alleged victim(i) resides in the Indian Country of the participating tribe;
(ii) is employed in the Indian Country of the participating
tribe; or
(iii) is a spouse or intimate partner of a member of the
participating tribe.
This is the language of 25 U.S.C. 1304(b)(4)(B):
(B) Defendant lacks ties to the Indian tribe. A
participating tribe may exercise special domestic
violence criminal jurisdiction over a defendant only if
the defendant
(i) resides in the Indian Country of the participating tribe;
(ii) is employed in the Indian Country of the participating
tribe; or

39a
Appendix C
(iii) is a spouse, intimate partner, or dating partner of
(I) a member of the participating tribe; or
(II) an Indian who resides in the Indian country of the
participating tribe.
In H.R. 4154, section 6. Tribal Protection Orders,
subsection (e) on Tribal Court Jurisdiction, provides
in paragraph (1) the following at p. 17:
Except as provided in paragraph (2), for purposes of
this section, a court of an Indian Tribe shall have full
civil jurisdiction to issue and enforce protection orders
involving any person, including the authority to enforce
any orders through civil contempt proceedings, to exclude
violators from Indian land, and to use other appropriate
mechanisms, in matters arising anywhere in the Indian
country of the Indian tribe (as defined in section 1151) or
otherwise within the authority of the Indian tribe.
H.R. 4154, section 6, subsection (e), paragraph (2), on
pp. 17-18, states that paragraph (1) shall not apply to
certain specified Indian Tribes in Alaska.
This is the language of 18 U.S.C. 2265(e):
For purposes of this section, a court of an Indian Tribe
shall have full civil jurisdiction to issue and enforce
protection orders involving any person, including the
authority to enforce any orders through civil contempt
proceedings, to exclude violators from Indian land, and
to use other appropriate mechanisms, in matters arising
anywhere in the Indian country of the Indian tribe (as
defined in section 1151) or otherwise within the authority
of the Indian tribe.

40a
Appendix C
H.R. 757 has exactly the same language as H.R. 4154,
with the same titles of sections, subsections and
paragraphs, on p. 13 and p. 17 respectively.
25 U.S.C. Section 1304(d) – Concerning “Rights of
Defendants.”
“ . . . the participating tribe shall provide to the
defendant . . .
(3) the right to a trial by an impartial jury that is drawn
from sources that –
(B) do not exclude any distinctive group in the community,
including non-Indians; and
(4) all other rights whose protection is necessary under the
Constitution of the United States in order for Congress
to recognize and affirm the inherent power of the
participating tribe to exercise special domestic violence
criminal jurisdiction over the defendant.”

41a
APPENDIX D —Appendix
SENATEDREPORT 112-153
ON THE VIOLENCE AGAINST WOMEN
REAUTHORIZATION ACT OF 2011,
MARCH 12, 2012, P. 11
Section 905 of the legislation [the predecessor
of Section 2265] is a narrow technical fix to clarify
Congress’s intent to recognize that tribal courts have full
civil jurisdiction to issue and enforce protection orders
involving any person, Indian or non-Indian. At least
one Federal district court has misinterpreted 18 U.S.C.
2265(e) and held that tribes lack civil jurisdiction to issue
and enforce protection orders against certain nonIndians
who reside within the reservation . . . Section 905 corrects
this error. It does not in any way alter, diminish or
expand tribal criminal jurisdiction or existing tribal
authority to exclude individuals from Indian land.
[emphasis supplied]

